                                                                           Legal Services Corporation

=,bLSC                                                                     Office of Inspector General




Inspector General
Jeffrey E. Schanz

        September 30, 2008

        Ms. Diana White
        Executive Director
        Legal Assistance Foundation of Metropolitan Chicago
        111 W. Jackson Boulevard, Suite 300
        Chicago, l L 60604-3502

        Dear Ms. White:

        Enclosed is our final report on the results of our audit on Selected Internal
        Controls at Legal Assistance Foundation of Metropolitan Chicago. We have
        reviewed your response with regard to the findings and recommendations in our
        draft report and believe the actions address Recommendations 1, 2, and 4 of this
        report. Based on your comments, we consider these recommendations closed.

        While your response to the draft report described actions to address
        Recommendation 3, it did not describe specific actions to establish controls
        requiring rotation of duties in the accounts payable function. Therefore,
        Recommendation 3 will remain open pending receipt of a corrective action plan
        documenting the corrective actions to address this recommendation. The plan is
        due no later than 30 days after the date of this report.

        In addition, we are referring the issue regarding derivative income to LSC
        management for follow-up and corrective action.

        We want to thank you and your staff for the cooperation and assistance you
        provided us.

        Sincerely,




        Inspector General

        Enclosure

        cc:     Helaine Barnett, President
                Legal Services Corporation
                                                                           3333 K Street, NW 3rd Floor
                                                                           Washington, DC 20007-3522
                                                                           Phone 202.295.1500 Fax 202.337.6616
                                                                           www.oig.lsc.gov
   LEGAL SERVICES CORPORATION
   OFFICE OF INSPECTOR GENERAL




 REPORT ON SELECTED INTERNAL
          CONTROLS



LEGAL ASSISTANCE FOUNDATION
  OF METROPOLITAN CHICAGO
            RNO 514020




        Report No. AU08-05
           September 2008
                                     TABLE OF CONTENTS



INTRODUCTION .......................................................................................... I

BACKGROUND ............................................................................................   I

OBJECTIVE ................................................................................................. I

SCOPE AND METHODOLOGY ................................................................... I

OVERALL EVALUATION ............................................................................. 2

RESULTS OF AUDIT ................................................................................... 3

   FOLLOW-UP ON GAO CONCERNS .............................................. 3

      Derivative Income................................................................................. - 3
      Recommendation 1 ............................................................................... 4
      Grantee Management Comments ......................................................... 4

  DISBURSEMENTS AND SUPPORTING DOCUMENTATION ..................4
    Recommendation 2 ............................................................................... 5
    Grantee Management Comments .........................................................            5

  INTERNAL CONTROL REVIEW OF SELECTED AREAS ........................5

     Rotation of Accounts Payable Duties ....................................................5
     Recommendation 3 ...............................................................................6
     Grantee Management Comments .........................................................6

     Written Policy Governing Consulting Contracting ..................................               6
     Recommendation 4 ............................................................................... 6
     Grantee Management Comments .........................................................6

OFFICE OF INSPECTOR GENERAL EVALUATION OF
 GRANTEE MANAGEMENT COMMENTS.................................................7

APPENDIX I .GRANTEE MANAGEMENT COMMENTS
                                INTRODUCTION

In November 2007, management of the Legal Services Corporation (LSC)
referred instances of internal control weakness at certain LSC grantees to the
Office of Inspector General (OIG) for follow-up to assess whether the issues
specifically identified by the GAO at each of the grantees had been corrected.

These internal control weaknesses were identified in the Government
Accountability Office (GAO) Draft Report entitled, "Legal Services Corporation -
Improved Internal Controls Needed in Grants Management and Oversight" as
well as in a November 13, 2007 meeting between GAO and LSC staff. The final
GAO report (GAO-08-37) was published on December 28,2007.


                                BACKGROUND

GAO assessed whether LSC's internal controls over grants management and
oversight processes provide reasonable assurance that grant funds are used for
their intended purposes. GAO analyzed records and interviewed LSC officials to
obtain an understanding of LSC's internal control framework, including the
monitoring and oversight of grantees, and performed limited reviews of internal
controls and compliance at 14 grantees. GAO found control weaknesses at 9 of
the 14 grantee sites it visited. These weaknesses included using LSC grant
funds for expenditures with insufficient supporting documentation, and for
unusual contractor arrangements, alcohol purchases, employee interest-free
loans, lobbying fees, late fees, and earnest money (derivative income).


                                  OBJECTIVE

Our overall objective was to determine whether Legal Assistance Foundation of
Metropolitan Chicago (grantee) maintains sufficient supporting documentation for
disbursements.      In addition, we evaluated other selected financial and
administrative areas relating to the GAO findings and tested the related controls
to ensure that expenditures were adequately supported and allowed under the
LSC Act and regulations.


                        SCOPE AND METHODOLOGY

To accomplish our objective we reviewed controls over the client intake process,
employee benefits and reimbursements, disbursements, and internal
management reportinglbudgeting. To obtain an understanding of the internal
controls over these areas, we reviewed grantee policies and procedures,
including any manuals, guidelines, memoranda, and directives setting forth
current grantee practices. We interviewed grantee officials to obtain an
understanding of the internal control framework and interviewed grantee
management and staff as to their knowledge and understanding of the processes
in place.

We conducted fieldwork at the grantee's central administrative office in
Chicago, IL. To test for the appropriateness of expenditures and the existence of
adequate supporting documentation, we reviewed disbursements from a
judgmentally selected sample of employee and vendor files. To assess the
appropriateness of grantee expenditures, we reviewed invoices, vendor lists, and
general ledger details. The appropriateness of grantee expenditures was based
on the grant agreements, applicable laws and regulations, and LSC policy
guidance. Our grantee reviews were limited in scope and were not sufficient for
expressing an opinion on the entire system of grantee internal controls or
compliance.

The on-site fieldwork was conducted from March 31, 2008 through April 4, 2008.
Documents reviewed pertained to the period January 1, 2007 through March 31,
2008. Our work was conducted at the grantee's site and at LSC headquarters in
Washington, DC.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


                           OVERALL EVALUATION

Our review of vendor files disclosed that Legal Assistance Foundation of
Metropolitan Chicago management maintained adequate documentation to
support disbursements.     Grantee disbursements tested were adequately
supported, allowable and properly allocated to LSC with some minor exceptions.
We noted in several instances that supporting documentation was not contained
in the respective vendor file, but the grantee was able to locate the
documentation upon request.

Internal controls over the general client intake process, employee benefits and
reimbursements, disbursements and internal management reportinglbudgeting
were operating in the manner expected to ensure compliance with the LSC Act
and LSC regulations. However, upon our inquiry into the allocation of attorneys'
fees to the unrestricted fund in the December 31, 2006 audited financial
statements, the grantee discovered after further research that the fee award had
been originally derived from LSC funded attorneys. Consequently, these
attorneys' fees should have been allocated to the LSC fund as derivative income
in accordance with 45 CFR §§ 1630.12(a) and 1642.5(a).

In addition, we did identify two areas where internal controls could be
strengthened. First, there is no rotation of duties in the accounts payable
function. Second, there is no formal written policy governing consultant
contracting.


                              RESULTS OF AUDIT

FOLLOW-UP ON GAO CONCERNS

GAO identified general types of weaknesses in its overall review of LSC
grantees. One of these types involved the recording of derivative income
allocable to an LSC funded activity.

       Derivative Income

45 CFR § 1630.12(a) provides that "Derivative income resulting from an activity
supported in whole or in part with funds provided by [LSC] shall be allocated to
the fund in which the [grantee's] LSC grant is recorded in the same proportion
that the amount of [LSC funds] expended bears to the total amount expended by
the [grantee] to support the activity." In addition, 45 CFR 5 1642.5(a) provides
that "Attorneys1 fees received by a [grantee]. ..for representation supported in
whole or in part with funds provided by [LSC] shall be allocated to the fund in
which the [grantee's] LSC grant is recorded in the same proportion that the
amount of [LSC] funds expended bears to the total amount expended by the
[grantee] to support the representation."

 During 2006, the grantee received $940,641 in an attorneys' fee award relating to
a case involved in by the grantee prior to 1996. The receipt of such an award for
work undertaken in cases prior to 1996 is not prohibited and therefore was not a
violation of LSC regulations. However, during the course of our review of the
December 31, 2006 audited financial statements, we found that the fees received
from the award were allocated to the unrestricted fund. We inquired into the
justification for this allocation. The grantee conducted research into the matter
and discovered that the fees related to a case that involved LSC funded
attorneys. Because the amount of the fee award received by the grantee in this
case represented income derived from an LSC funded activity, it should have
been allocated to the LSC fund in accordance with 45 CFR §§ 1630.12(a) &
1642.5(a).

The grantee noted, however, that although the award was not treated pursuant to
LSC regulations when received, a dollar amount at least equal in size was
ultimately allocated to the LSC fund over a two year period. Supplemental
schedules to the audited financial statements for both December 31, 2006 and
December 31, 2007 show over $900,000 each year in unrestricted non-LSC
funds allocated to the LSC fund balance.

Properly recording derivative income helps ensure that LSC funds are
appropriately allocated in accordance with 45 CFR €j 1630.12(a) and the recently
issued LSC Management ~dvisory'. Also, properly accounting for derivative
income helps ensure that all LSC funds are subject to all of LSC's restrictions
and prohibitions, and that the LSC fund balance is accurately stated.

Because the inaccurate recording of derivative income is a violation of LSC
regulations, the OIG is referring this matter to LSC management for follow-up
and corrective action.

       Recommendation 1 - The Executive Director should establish an internal
protocol and train appropriate staff on such protocol to adequately ensure that all
derivative income is fully researched and properly entered into accounting
records in accordance with 45 CFR €j 1630.12.

        Grantee Manasement Comments. The Executive Director stated:
        "We agree an attorneys' fee award of more than $940,000 was improperly
        allocated to unrestricted funds rather than the LSC fund. These fees
        related to an LSC-funded class action that was undertaken in the early
        1990's and from which LAF withdrew in 1996. A decade later, the case
        was tried and won by health and Disability Advocates, the Sargent Shriver
        National Center on Poverty Law, and the Chicago firm of Goldberg Kohn
        Bell Black Rosenbloom & Moritz. The resulting fee award was shared
        among all the attorneys for the plaintiff class, including LAF.

        "We note that LAF allocated more than $900,000 in unrestricted, non-LSC
        funds to the LSC fund balance in each of the 2006 and 2007 calendar
        years, so no adjustment is necessary to correctly record the attorneys' fee
        award.

        As recommended, we have prepared a policy (Attachment I ) to establish
        procedures for properly recording derivative income in accordance with
        LSC regulations."


DISBURSEMENTS AND SUPPORTING DOCUMENTATION

Our review of 480 judgmentally selected disbursements, valued at $921,100,
disclosed that disbursements were adequately supported, allowable, and

1
 Advisory from the President, Legal Services Corporation, to all LSC Executive Directors
regarding "Fiscal Management and Use of LSC Funds" (March 20,2008)
properly allocated to LSC. However, we identified several instances involving
minor dollar amounts where adequate supporting documentation was not
contained in the respective vendor file. In addition, we identified two account
transfers totaling $235,000 where adequate supporting documentation was
lacking in the file but was subsequently provided by the grantee upon our inquiry.
The disbursements in our sample covered the period January 1, 2007 through
March 31,2008.

      Recommendation 2 - The Executive Director should ensure that adequate
supporting documentation is maintained in all invoice files.

      Grantee Management Comments. The Executive Director stated:
      "We agree that adequate supporting documentation was not attached to
      several disbursements involving minor amounts and to two account
      transfers. Our policy regarding Allocation of Costs (Attachment 2) states
      that all costs must be adequately documented. Management will monitor
      compliance with this policy to ensure that supporting documentation is
      attached to all disbursements and account transfers."


INTERNAL CONTROL REVIEW OF SELECTED AREAS

Our review of the internal controls over the general client intake process,
employee benefits and reimbursements, disbursements and internal
management reportinglbudgeting revealed that the controls are operating in the
manner expected to ensure compliance with the LSC Act and LSC regulations.
We did note two areas where internal controls could be strengthened:

1) Rotation of Accounts Payable Duties

      Management has not implemented a process to rotate duties in the
      accounts payable (AP) function on a periodic basic. Our review of the AP
      function revealed that only one individual performed the AP duties.
      Additionally, when this individual is on leave or otherwise unavailable,
      unpaid invoices are not processed until he returns.

      LSC's Accounting Guide suggests a guideline that employees be required
      to take annual vacations, and that duties be assigned to others in the
      absence of the employee. Establishing strong internal controls such as
      requiring individuals to rotate jobs for a period of at least 2 weeks per year
      that occur at month end when books are being closed helps reduce the
      potential for loss of funds and increases the potential for early detection of
      fraud. In addition, rotating duties helps to cross train individuals to
      perform the AP function when the primary person is unavailable. This in
      turn will help ensure that invoices do not wait to be paid thus reducing the
      potential for late payments or loss of discounts for prompt payment.
   Recommendation 3 - The Executive Director should establish controls
   that require rotation of duties and ensure cross training of employees in
   the AP function. The rotation of duties should be for a reasonable period
   of time and occur at month end when the books are being closed.

   Grantee Manaqement Comments. The Executive Director stated:
   "We agree that only one individual is responsible for accounts payable.
   However, both of our Accounting Assistants II and the Accounting
   Assistant I have performed account payable duties in the past and are
   familiar with the process and software used. Management intends to
   require rotation of accounts payable duties to enhance its internal controls.


2) Written Policy Governing Consultant Contracting

   LAF does not have a formal written policy governing the administration of
   consulting contracts. The LAF accounting manual as well as the
   contractor agreement contains no provision for travel advances or
   expense reimbursements to independent contractors. As a result, a small
   travel advance to a consultant was not properly documented and the
   funds have not yet been recouped or fully supported.

   Grantee management stated that they did not consider including a travel
   advance or expense reimbursement clause in the contract because of its
   infrequent occurrence. Grantee management further stated that the travel
   advance was miscoded so the finance department did not follow up with
   the contractor to obtain supporting documentation. Establishing formal
   written policies helps strengthen controls over contracting and helps
   ensure that funds are properly controlled.

   Recommendation 4 - The Executive Director should develop a formal
   written policy governing consultant contracting and include procedures to
   ensure supporting documentation is obtained and funds advanced for
   travel are properly accounted for.

   Grantee Manaqement Comments. The Executive Director stated:
   "We agree that supporting documentation to account for minor travel
   expenses incurred by an outside consultant was not available during the
   OIG review, in part because the travel advance issued was miscoded (as
   the finance department discovered in following up on this item).
   Management has since developed a written policy (Attachment 3) to
   monitor independent consulting agreements and ensure that travel
   advances are properly recorded."
      OFFICE OF INSPECTOR GENERAL EVALUATION OF GRANTEE
                     MANAGEMENT COMMENTS


The grantee agreed with all recommendations and has taken action to address
and correct deficiencies identified in Recommendations 1, 2, and 4 of this report.
Based on those actions, we consider the findings closed.

While the grantee agreed with Recommendation 3, specific actions to establish
controls requiring rotation of duties in the accounts payable function were not
provided. Rather, grantee management comments stated that it "...intends to
require rotation of accounts payable duties.. ." Therefore, Recommendation 3 will
remain open pending receipt of a corrective action plan documenting the
corrective actions to address this recommendation. The plan is due no later than
30 days after the date of this report.
                                                                                                    APPENDIX I
                                                                                                   111 West Jackson Boulevard
                                                                                                   Suite 300
                                                                                                   Chicago, Illinois 60604-3528
                                                                                                   312.341.1070       Phone
                                                                                                   312.341.1041 Fax
                                                                                                   ( 8 6 6 ) 8 0 1 - 0 5 0 5 TTY
                                                                                                   U s e r name: lafmcgo
                                                                                                   www.lafchicago.org

  Diana C. White
  Executive Director

  Alan Alop
  J a c k L. Block
  Deputy Directors

                      ,(.   I   *ri                            September 19, 2008
   CENTRAL INTAKE
   111 West Jackson Blvd
  Ch~cago,IL 60604
   (312) 341 1070
                                      By e-mail and regular mail
  TDD (866) 801 0505
  FAX (312) 341 1041
  NORTH SUBURBAN OFFICE               Ronald D. Merryman
  828 Davls Street, Rm 201
  Evanston IL 60201 4489              Assistant Inspector General for Audit
  (847) 475 3703
  FAX (847) 475 3033                  Legal Services Corporation
  NORTHWEST OFFICE
  1279 N M~lwaukeeAve n407
                                      Office of Inspector General
  Chicago. IL 60622-2253
  (773) 572-3200
                                      3333 K Street, NW - 3 r d Floor
  FAX. (773) 572-3201                 Washington, DC 20007-3522
 SOUTH SIDE OFFICE
  10 West 35th Street
 Ch~cago,IL 60616-3717
  (312) 949-5390                      Dear Mr. Merryman:
 FAX: (312) 949-0481
 SOUTH SUBURBAN OFFICE
 900 East 162nd Street
 south Holland, IL 60473-2471         Here is the response of the Legal Assistance Foundation of
 (708) 271-4950
 FAX: (708) 596-4108
                                      Metropolitan Chicago (LAF)to the draft report on the Inspector
 WEST SIDE OFFICE
 3333 west Arthington
                                      General's audit on Selected Internal Controls, dated August 25,
 Chicago, IL 60624-4102
 (773) 321-7900
                                      2008.
 FAX (773) 638 0036
 Residents of West Suburban
 Cook County should call
 (773) 321 7900
                                      Recommendation I -- The Executive Director should establish an
                                      internal protocol and train appropriate staff on such protocol to
                                      adequately ensure that all derivative income is fully researched and
  Bankruptcy Project
  Ch~cagoS e n ~ o r sProject         properly entered into accounting records in accordance with 45 CFR
  Chlldren s Law
  Consumer Law
                                      3   1630.12.
  Crime Vict~msAssistar~ce
  (773) 638-4111
  Disability Law                      Response:
  Expungement Project
 Farnily Law/Dornestic V~olence       We agree an attorneys' fee award of more than $940,000 Was
 (3121 431-2255
 Federal District Court Assistance
                                      improperly allocated to unrestricted funds rather than the LSC fund.
  For Pro Se Litigants                These fees related to an LSC-funded class action that was
 Federal Court Bankruptcy
 HIV/AIDSProject                      undertaken in the early 1990's and from which LAF withdrew in
 (312) 347-8309
 Home Ownership Preservat~on          1996. A decade later, the case was tried and won by Health and
 (312) 431-2204
Illinois Migrant Legal Assistance
                                      Disability Advocates, the Sargent Shriver National Center on Poverty
 (800) 824-4050 (toll-free)           Law, and the Chicago firm of Goldberg Kohn Bell Black Rosenbloom
Legal Center for Immigrants
(312) 341-9617                        & Moritz. The resulting fee award was shared among all the
Long Term Care Ombudsman for
  Suburban Cook and Lake Counties     attorneys for the plaintiff class, including LAF.
(8881 401-8200 (toll-free)
Medical Debt Relief
(312) 431-2118
Private Attorney involvement
                                      We note that LAF allocated more than $900,000 in unrestricted,
PIO Se Divorce Clinic                 non-LSC funds to the LSC fund balance in each of the 2006 and
(312) 431-2101
Public Benefits Hotline               2007 calendar years, so no adjustment is necessary to correctly
(888) 893-5327
SSI Advocacy Project
                                      record the attorneys' fee award.
Veterans' Law Pm~ect




                                                 Eqzlal Access t o J u s t i c e
  For Equal Jurtlce
A s recommended, we have prepared a policy (Attachment 1) to
establish procedures for properly recording derivative income in
accordance with LSC regulations.

Recommendation 2: The Executive Director should ensure that
adequate supporting documentation is maintained in all invoice files.

Response:
We agree that adequate supporting documentation was not attached
to several disbursements involving minor amounts and to two
account transfers. Our policy regarding Allocation of Costs
(Attachment 2) states that all costs must be adequately documented.
Management will monitor compliance with this policy to ensure that
supporting documentation is attached to all disbursements and
account transfers.

Recommendation 3: The Executive Director should establish controls
that require rotation of duties and ensure cross-training of employees
in the APfunction. The rotation of duties should be for a reasonable
time and occur at month end when the books are being closed.

Response:
We agree that only one individual is responsible for accounts
payable. However, both of our Accounting Assistants I1 and the
Accounting Assistant I have performed account payable duties in the
past and are familiar with the process and software used.
Management intends to require rotation of accounts payable duties
to enhance its internal controls.

Recommendation 4: The Executive Director should develop a formal
written policy governing consultant contracting and include
procedures to insure supporting documentation is obtained and f i n d s
advanced for travel are properly accounted for.

Response:

We agree that supporting documentation to account for minor travel
expenses incurred by an outside consultant was not available during
the OIG review, in part because the travel advance issued was
miscoded (as the finance department discovered in following up on
this item). Management has since developed a written policy
(Attachment 3) to monitor independent consulting agreements and
ensure that travel advances are properly recorded.

                               Sincerely,
                                f i b w c . I\&L
                               Diana C. White
                               Executive Director
                  ALLOCATION OF DERIVATIVE INCOME


POLICY:         There shall be a policy of the Legal Assistance Foundation of Metropolitan
                Chicago to assure that income resulting from an activity supported with
                funds provided by LSC be allocated to LSC funds.

PURPOSE:        To comply with 45 C.F.R. Section 1630.12 which provides that derivative
                income resulting from an activity supported in whole or in part with funds
                provided by LSC shall be allocated to the fund in the same proportion.

PROCEDURE: I.   The Controller shall be responsible for identifying income that is
                supported in whole or part with funds provided by LSC and assure that
                LSC funds are allocated a proportionate share.

                Examples of derivative income may include the following:

           A.   Interest Income
                The Assistant Accountant I1 shall assure that interest income resulting
                from investment of LSC funds is properly recorded. Each month a journal
                entry shall be prepared to allocate interest income to LSC funds based on
                the proportion of LSC deposits with total deposits.

           B.   Disposal of Real Property
                The Controller shall account for income earned from the sale of real or
                personal property and allocate the proceeds to LSC funds the same
                proportion that the amount of LSC funds were used to purchase the
                property. Personal property can include equipment, hrniture, or books;
                but does not include office supplies. Real property means land, buildings
                and capital improvements.

           C.   Attorney Fee Awards
                The Controller shall account for attorney fee awards received as the result
                of judgment, court order, or settlement of cases. These awards are to be
                allocated to LSC funds in the same proportion that the amount of LSC
                funds was used to support the representation. However, 45 C.F.R. Section
                1642.3 prohibits LAF to claim or collect attorney fee awards for cases
                filed after April 26, 1996.

           D.   Costs Recovered
                When case results in a recovery of damages LAF may accept
                reimbursement from clients for expenses incurred in connection with a
                case as long as the client has.agreed in writing to reimburse LAF for the
                expenses. These reimbursements are to be allocated to LSC funds in the
                same proportion that the amount of LSC funds was used to pay for such
                expenses.
Disbursements and Supporting Documentation.

We agree that adequate supporting documentation was not attached to several
disbursements involving minor amounts as well as two account transfers. Our policy
regarding Allocation of Costs states that all costs be adequately documented.
Management will monitor compliance with this policy to assure that supporting
documentation is attached to all disbursements and account transfers.

Rotation of Account Payable Duties

We agree that only one individual is responsible for accounts payable. However, both
Assistant Accountants I1 and the Assistant Accountant I staff members have performed
account payable duties in the past and are familiar with the process and account payable
software. Management intends to require rotation of Account Payable duties to enhance
its internal controls.

Consultant Contracting

Management has issued a policy
                              ALLOCATION OF COSTS


POLICY:           There shall be a consistent method for the allocation of costs.

PURPOSE:          To comply with Generally Accepted Accounting Principals (GAAP) and
                  requirements established by the Legal Services Corporation and other
                  federally funded agencies.

PROCEDURE: I.     Only costs that are reasonable, allowable and allocable to a federal award
                  shall be charged to that award directly or indirectly.

           11.    All unallowable costs shall be coded to separate grant numbers to assure
                  that unallowable costs are not charged to the federal award.

           111.   The Controller shall be responsible for identifying and segregating costs
                  that are allowable and unallowable by reviewing budgets and grants for
                  each award and identifjmg specifically unallowable costs such as alcoholic
                  beverages, bad debts, contributions, fine and penalties, lobbying, etc.

           IV. All costs to be treated as allowable direct or indirect costs must be:

                      necessary for the operation of the organization or the performance of
                      the award
                      an arm's length transaction
                      consistent with established policies and procedures
                      adequately documented.

           V.     Direct costs include those costs that are incurred specifically for one
                  award or project. The Legal Assistance Foundation identifies and charges
                  these cost exclusively to each award or project.

                  Invoices shall be coded with the appropriate account number reflecting
                  which program received direct benefit from the expenditure. Invoices are
                  approved by the appropriate supervisory attorney or office manager and
                  reviewed by the Controller.

                  Salary allocation memorandums are issued periodically by the Controller.
                  These memorandums are often initiated as the result of budgets approved
                  by government funding agencies or private foundations and serve as the
                  basis for allocating salary expenses.

           VI.    Payroll taxes and other fringe benefits are to be allocated to projects and
                  grants on a salary dollar ratio.
VII.   Indirect costs are to be allocated to projects and grants on a hll-time
       equivalency ratio.
                  INDEPENDENT CONSULTING AGREEMENTS


POLICY:           The Agency shall maintain a procedure to monitor independent consulting
                  arrangements.

PURPOSE:          To assure that the Legal Assistance Foundation of Metropolitan Chicago
                  complies with requirements established by various governmental funding
                  agencies as well as to identify the responsibilities of LAF and the consultant.

PROCEDURE: I.     It is the responsibility of the Supervisory Attorney to initiate an independent
                  consultant agreement prior to the utilization of any services.

           11.    The Supervisory Attorney shall be responsible to determine the nature and
                  scope of services, reasonable costs, and confirm that the services can not
                  be performed by existing staff.

                  When a consultant will be funded from proceeds of a grant award the
                  Supervisory Attorney shall notify the grantor that LAF has subcontracted
                  duties under the grant award.

           111.   The Executive Director must approve all requests for independent
                  consultants.

           IV.    The Agreement should include the following:
                  a. Scope of Services
                  b. Expertise of Consultant
                  c. LAF staff member names that will consult with the consultant and
                     coordinate performance of the services to be provided.
                  d. Fees and expenses
                  e. Start and ending dates of the agreement
                  f, Statement regarding the employment status of the consultant in
                     relation to LAF.
                  g. Statement regarding the confidential information.
                  h. Statements regarding compliance with laws, LAF policies and
                     proprietary rights.
                  i. Professional liability insurance requirements if applicable.
                  j. Signature and dates of supervisory attorney and consultant.

           V.     The Supervisory Attorney shall assure that an IRS W-9 Form has been
                  completed by the consultant and forwarded to the Finance Department.

           VI.    The Supervisory Attorney shall approve all invoices submitted by the
                  consultant prior to payment and forward the original invoice to Finance for
                  processing.
VII.   Unless specifically provided in the agreement, all expenses shall be borne
       by the consultant. Should funds be approved and advanced to the
       consultant for travel, an accounting for the advance with appropriate
       receipts must be submitted by the 15" day following the month in which
       the expenses were incurred.
